TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                         RECOVERY ACT


                    Individuals Received Millions of Dollars in
                    Erroneous Plug-in Electric and Alternative
                              Motor Vehicle Credits



                                         January 21, 2011

                               Reference Number: 2011-41-011




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1= Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


INDIVIDUALS RECEIVED MILLIONS OF                     an estimated $3.1 million in revenue protected.
DOLLARS IN ERRONEOUS PLUG-IN                         The erroneous claims TIGTA identified resulted
ELECTRIC AND ALTERNATIVE MOTOR                       from inadequate IRS processes to ensure
VEHICLE CREDITS                                      information reported by individuals claiming
                                                     plug-in electric and alternative motor vehicle
                                                     credits met qualifying requirements for vehicle
Highlights                                           year, placed in-service date, and make and
                                                     model.
Final Report issued on January 21, 2010              In addition, TIGTA found that the IRS is unable
                                                     to track and account for plug-in electric and
Highlights of Reference Number: 2011-41-011          alternative motor vehicle credits claimed by
to the Internal Revenue Service Commissioner         individuals on paper-filed tax returns. Processes
for the Wage and Investment Division.                were not established to capture this information
                                                     from paper-filed tax returns.
IMPACT ON TAXPAYERS
                                                     Finally, our review of electronically filed tax
The American Recovery and Reinvestment Act           returns also identified individuals who
of 2009 (Recovery Act) included a number of          erroneously claimed the same vehicle for
provisions that encourage the purchase of            multiple plug-in electric and alternative motor
motor vehicles that operate on clean renewable       vehicle credits or claimed an excessive number
sources of energy. Individuals claimed more          of vehicles for personal use credits. TIGTA also
than $163.9 million in plug-in electric and          identified improper claims for the credits by
alternative motor vehicle credits from               prisoners and IRS employees. TIGTA has
January 1 through July 24, 2010. Agencies are        referred the information on the IRS employees
required to ensure Recovery Act funds are used       to its Office of Investigations for further review.
for authorized purposes and appropriate
measures are taken to prevent fraud, waste,          WHAT TIGTA RECOMMENDED
and abuse.
                                                     TIGTA recommended that the Commissioner,
WHY TIGTA DID THE AUDIT                              Wage and Investment Division, develop Error
                                                     Resolution System procedures to not allow
This audit was initiated because TIGTA is            credits for vehicles with nonqualifying years,
required to monitor the Internal Revenue             initiate actions to recover erroneous credits
Service’s (IRS) implementation of Recovery Act       identified by TIGTA, and either develop a coding
provisions. Our overall objective was to assess      system to identify vehicle makes and models or
the effectiveness of IRS processes to identify       require the Vehicle Identification Number on the
and prevent erroneous claims for the plug-in         forms used to claim plug-in electric and
electric vehicle credit and alternative motor        alternative motor vehicle credits.
vehicle credit for tax returns filed from
January 1 through July 24, 2010.                     IRS management agreed with the
                                                     recommendations and plans to update
WHAT TIGTA FOUND                                     procedures to require a review of the make,
As of July 24, 2010, TIGTA identified                model, and date vehicles were placed in service
12,920 individuals who electronically filed their    to ensure credits are being claimed for qualifying
tax returns and erroneously claimed $33 million      vehicles. In addition, the IRS plans to add a
in plug-in electric and alternative motor vehicle    new line on the forms used to claim the credits
credits. In addition, 1,719 of the 12,920            to require a Vehicle Identification Number and
individuals also erroneously reduced the amount      has requested that e-file software providers
of Alternative Minimum Tax owed by almost            implement programming changes to allow
$5.3 million. During this review, management         taxpayers to select the make, model, and year of
took corrective actions to reduce erroneous          qualifying vehicles from a drop-down menu. The
claims when process weaknesses were brought          IRS also plans to recover erroneous claims by
to their attention. These actions have resulted in   reversing credits and conducting audits.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                January 21, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Individuals Received Millions of Dollars in
                                 Erroneous Plug-in Electric and Alternative Motor Vehicle Credits
                                 (Audit # 201040131)

 This report presents the results of our review to assess the effectiveness of Internal Revenue
 Service (IRS) processes to identify and prevent erroneous claims for the plug-in electric vehicle
 credit and the alternative motor vehicle credit for tax returns filed from January 1 through
 July 24, 2010. This review was included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenges of Implementing Tax Law Changes and Erroneous
 and Improper Credits and Payments.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                           Individuals Received Millions of Dollars in
                        Erroneous Plug-in Electric and Alternative Motor
                                        Vehicle Credits




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Processes Were Not Established to Track and Account for
          Recovery Funds Claimed for Plug-in Electric Vehicle Credits .................... Page 3
          Individuals Claimed Erroneous Plug-in Electric and
          Alternative Motor Vehicle Credits................................................................ Page 5
                    Recommendations 1 and 2: .............................................. Page 8

                    Recommendation 3:........................................................ Page 10

                    Recommendation 4: .................................................................. Page 13

                    Recommendation 5: .................................................................. Page 14

          Plug-in Electric and Alternative Motor Vehicle Credits
          Are Being Abused ........................................................................................ Page 14
                    Recommendations 6 through 8:......................................... Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 21
          Appendix III – Report Distribution List ....................................................... Page 22
          Appendix IV – Outcome Measures............................................................... Page 23
          Appendix V – Management’s Response to the Draft Report ....................... Page 26
                   Individuals Received Millions of Dollars in
                Erroneous Plug-in Electric and Alternative Motor
                                Vehicle Credits




                                Abbreviations

AMT                      Alternative Minimum Tax
e-filed; e-filing        Electronically filed; electronic filing
IRS                      Internal Revenue Service
TIGTA                    Treasury Inspector General for Tax Administration
                               Individuals Received Millions of Dollars in
                            Erroneous Plug-in Electric and Alternative Motor
                                            Vehicle Credits




                                                              Background

    The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 included a number of
    provisions that encourage the purchase of motor vehicles (or the conversion of motor vehicles to
    those) that operate on clean renewable sources of energy. Figure 1 provides a comparison of the
    plug-in electric and alternative motor vehicle credit provisions included in the Recovery Act.
         Figure 1: Plug-in Electric and Alternative Motor Vehicle Credits Comparison
     Criteria                      Plug‐in Electric Vehicle           Plug‐in Electric              Qualified Plug‐in            Alternative Motor 
                                   Credit                             Vehicle Conversion            Electric Drive Motor         Vehicle 
                                                                      Credit                        Vehicle Credit               (Nonconversion) 
                                                                                                                                 Credit 
     Credit Requirements           Qualified Plug‐in Electric and     Alternative Motor             Qualified Plug‐in            Alternative Motor 
                                   Electric Vehicle Credit            Vehicle Credit                Electric Drive Motor         Vehicle Credit 
     Form Needed to Claim          (Form 8834)                        (Form 8910)                   Vehicle Credit               (Form 8910) 
     Credit                                                                                         (Form 8936) 
     How Calculated                Lesser of 10% vehicle cost         Lesser of 10% cost of         $2,500 plus $417 per         Varies with type of 
                                   or maximum vehicle credit          vehicle conversion or         kw/hr in excess of 4.0       vehicle 
                                                                      maximum vehicle credit                                      
     Maximum Credit Per            $2,500                             $4,000                        $7,500 ‐ $15,000             Varies with type of 
     Vehicle                                                                                        depending on gross           vehicle  
                                                                                                    vehicle weight rating  

     Maximum Vehicles Per          Unlimited                          Unlimited                     Unlimited                    Unlimited
     Return 
     Additional Restrictions or    No double benefit is allowed.  A vehicle that qualifies for credit on Form 8910 will not qualify for credit on Form 
     Requirements                  8834 or Form 8936.  A vehicle that qualifies for credit with Form 8834 or 8936 may be claimed on one or the other, 
                                   but not both. 
                                   Business use credit is claimed as part of the General Business Credit on General Business Credit (Form 3800).
                                   Personal use credit must be reduced by any amount of business use credit.
                                   *Credit is limited to reduction of regular and Alternative Minimum Tax (AMT) (i.e., nonrefundable).  The AMT may 
                                   be reduced only by personal part of the credit. 
     Qualifying Vehicle                                                                                                           
                                                New Only              New or Used                   New Only                     New Only 
     New or Used  
     Placed In‐Service             After 2/17/2009                    After 2/17/2009               After 12/31/2008             After 12/31/2008
     Additional Restrictions or    For use on public roads, streets, and highways.
     Requirements                  Original use must commence with taxpayer claiming credit.
                                   If vehicle ceases to qualify for credit, part or all of credit is subject to recapture.
                                   Manufacturer’s or domestic distributor’s certification that vehicle qualifies for credit may be relied on, unless 
                                   certification has been revoked by the Internal Revenue Service. 
    Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Internal Revenue Code Sections 30,
    30B, and 30D.


1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                                                                  Page 1
                      Individuals Received Millions of Dollars in
                   Erroneous Plug-in Electric and Alternative Motor
                                   Vehicle Credits



Figure 2 details the number of claims and amounts claimed on electronically filed (e-filed) tax
returns for plug-in electric and alternative motor vehicle credits.
      Figure 2: Amounts Claimed on E-Filed Tax Returns for Plug-in Electric and
                 Alternative Motor Vehicle Credits As of July 24, 2010

                           Form 8834                 Form 8910                 Form 8936          Total
                                            Conversions       Alternative
                                               Only             Motor
                                                               Vehicle
                                                               Credits
       Individuals                2,769              1,522          52,006           13,204         69,501
     Claiming Credit
     Credits Claimed        $3,767,832         $3,940,612     $85,405,698      $70,813,609     $163,927,751
  Source: TIGTA analysis of e-filed tax return volumes from January 1 through July 24, 2010.

Recovery Act activities require a high level of scrutiny, and taxpayer dollars spent on economic
recovery must be subject to unprecedented levels of transparency and accountability. Federal
agencies are required to ensure Recovery Act funds are used for authorized purposes and that
appropriate measures are taken to prevent fraud, waste, and abuse. As such, the TIGTA is required
to monitor the Internal Revenue Service’s (IRS) implementation of Recovery Act provisions. This
audit was conducted to meet those requirements.
This review was performed at the Wage and Investment Division Headquarters in Atlanta, Georgia;
the Submission Processing function offices in Lanham, Maryland, and Cincinnati, Ohio; and the
Submission Processing Site in Austin, Texas, during the period April through September 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                          Page 2
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits




                                  Results of Review

Processes Were Not Established to Track and Account for Recovery
Funds Claimed for Plug-in Electric Vehicle Credits
The IRS is unable to track and account for plug-in electric and alternative motor vehicle credits
claimed by individuals on paper-filed tax returns. Processes were not established to capture
information from the following paper-filed tax forms:
   •   Qualified Plug-in Electric and Electric Vehicle Credit (Form 8834).
   •   Plug-in electric vehicle conversion credits on Alternative Motor Vehicle Credit
       (Form 8910).
   •   Qualified Plug-in Electric Drive Motor Vehicle Credit (Form 8936).
Plug-in electric vehicle credits claimed on Forms 8834, 8910, and 8936 are carried forward from
these forms to the U.S. Individual Income Tax Return (Form 1040), Line 53. Line 53 includes
plug-in electric vehicle credit amounts and can include credit amounts from at least 10 other tax
credit forms. For credits claimed on e-filed tax returns, IRS data files can be used to identify
individuals and amounts claimed for plug-in electric vehicle credits. However, for paper-filed tax
returns, the IRS did not establish processes to transcribe and capture in IRS data files information
relating to plug-in electric vehicle credits claimed. As a result, the IRS is unable to track and
account for plug-in electric vehicle credits claimed on paper-filed tax returns.
Figure 3 shows an example of Line 53 on Form 1040 and the instructions to the individuals
completing this line.




                                                                                                Page 3
                      Individuals Received Millions of Dollars in
                   Erroneous Plug-in Electric and Alternative Motor
                                   Vehicle Credits



                Figure 3: Example of Line 53 on Form 1040 and Instructions




Source: 2009 Form 1040 and Instructions.

Government-wide guidance for carrying out the programs and activities of the Recovery Act was
issued to include steps Federal agencies must take to meet the goals and to implement the Act
effectively. Reporting activities are designed to track Recovery Act tax provision benefits. The
Department of the Treasury’s Recovery Act Plan: Tax Provision Implementation Program states that
“The Department of the Treasury will provide an estimate of benefits to individuals, businesses, and
state and local governments as data becomes available.”
On December 16, 2009, we alerted IRS management of the inability to track and account for plug-in
electric and alternative motor vehicle credits claimed by individuals on paper-filed tax returns. We
recommended that the IRS implement programming to enable it to track and account for plug-in
electric vehicle credits claimed on paper-filed tax returns.

                                                                                              Page 4
                        Individuals Received Millions of Dollars in
                     Erroneous Plug-in Electric and Alternative Motor
                                     Vehicle Credits



Management Actions
    •    February 4, 2010 – IRS management agreed that processes need to be in place for transparent
         reporting of Recovery Act-related credits and responded that existing and newly created
         processes will allow it to report on the use of these credits. Programming was to be
         implemented to enable the IRS to track and account for funds allocated as part of tax
         provisions included in the Recovery Act for individuals claiming plug-in electric vehicle
         credits on paper-filed tax returns. The implementation date for the programming was
         originally February 18, 2010, but was delayed to the end of April 2010, due to the IRS’s
         Modernization and Information Technology Services workload. The IRS subsequently
         informed us that they decided to delay identifying and tracking these credits until the
         beginning of the 2011 Filing Season because the April peak processing period had passed.
    •    September 16, 2010 – In response to the 2010 Filing Season Audit Report,2 IRS management
         agreed to submit programming requests to enable the IRS to capture the data needed from
         Forms 8834, 8910, and 8936.
We will include tests in our 2011 Filing Season Review to evaluate the IRS’s implementation of
planned corrective actions.

Individuals Claimed Erroneous Plug-in Electric and Alternative Motor
Vehicle Credits
As of July 24, 2010, we identified 12,920 individuals who e-filed their tax returns and erroneously
claimed3 $33 million in plug-in electric and alternative motor vehicle credits. We also identified
1,719 of the 12,920 individuals erroneously reduced the amount of the AMT owed by almost
 $5.3 million. In addition, we identified IRS employees who erroneously claimed plug-in electric
and alternative motor vehicle credits. We have referred these employees to our Office of
Investigations for further review. During this review, management took corrective actions to reduce
erroneous claims when process weaknesses were brought to their attention. These actions have
resulted in an estimated $3.1 million in revenue protected.
Based on our review of a statistically valid sample of 233 paper-filed tax returns with an amount on
Line 53 of Form 1040, we estimate another 1,300 individuals may have erroneously claimed more
than $4.2 million in plug-in electric and alternative motor vehicle credits. As previously discussed,
the IRS is unable to track and account for plug-in electric vehicle credits claimed on paper-filed tax


2
  Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference
Number 2010-41-128, dated September 30, 2010).
3
  We were unable to track credit amounts received by individuals because Line 53 on Form 1040 is recorded by the IRS
as a combined total of at least 10 different credits from which we cannot extract specific data. However, based on
information provided by the individuals on their tax returns, they did not qualify for the plug-in electric vehicle and/or
alternative motor vehicle credit they claimed.
                                                                                                                   Page 5
                     Individuals Received Millions of Dollars in
                  Erroneous Plug-in Electric and Alternative Motor
                                  Vehicle Credits



returns. Therefore, we are not including potential erroneous claims in our reported outcomes for
paper-filed tax returns.
Figure 4 provides a summary of the erroneous claims we identified for e-filed tax returns. The
information provided by individuals on their e-filed tax returns identifies that the individuals did not
qualify for the plug-in electric and alternative motor vehicle credits claimed.
                            Figure 4: Erroneous Plug-in Electric and
                            Alternative Motor Vehicle Credit Claimed

                Plug-in Electric and Alternative                    Erroneous Claims
                    Motor Vehicle Credits                         Through July 24, 2010
                      Reason Vehicle Claimed                   Number of               Dollar
                          Did Not Qualify                      Individuals            Amount
              Nonqualifying Vehicle Year                           2,710            $ 4.5 million
              Placed In-Service Date                                 589            $ 1.4 million
              Make of the Vehicle                                  9,621            $27.1 million
              Total                                               12,920            $33.0 million
             Source: TIGTA analysis of e-filed tax returns through July 24, 2010.

The erroneous claims resulted from inadequate IRS processes to ensure information reported by
individuals claiming plug-in electric and alternative motor vehicle credits met qualifying
requirements for vehicle year, placed in-service date, and make and model.

Individuals erroneously claimed plug-in electric and alternative motor vehicle credits
for vehicles with a nonqualifying vehicle year
Our review identified 2,710 individuals who e-filed their tax returns and erroneously claimed
$4.5 million in plug-in electric and alternative motor vehicle credits for vehicles with a
nonqualifying vehicle year. These individuals claimed these credits on Forms 8834, 8936, and 8910,
and reported a vehicle with a year earlier than 2009 for Form 8834 and Form 8936 and a vehicle
with a year earlier than 2008 for Form 8910. The law requires that vehicles must be new for the
vehicle to qualify for these credits. Figure 5 provides examples of nonqualifying vehicle years
reported by individuals on e-filed tax returns we identified as having erroneous claims for plug-in
electric and alternative motor vehicle credits.




                                                                                                    Page 6
                       Individuals Received Millions of Dollars in
                    Erroneous Plug-in Electric and Alternative Motor
                                    Vehicle Credits



                       Figure 5: Examples of Nonqualifying Vehicle Years
                                    Claimed on Tax Returns

                    Form                Examples of Nonqualifying Vehicle Years
                                  1010, 1967, 1972, 1974, 1975, 1976, 1977, 1979, 1982, 1984,
                 Form 8834
                                  1985, 1986, 1987, 1988, 1990, 1991, 1992, 1993
                                  1005, 1979, 1985, 1989, 1990, 1991, 1992, 1993, 1994, 1995,
                 Form 8936 
                                  1996, 1997, 1998, 1999, 2000, 2001, 2002, 2003

                 Form 8910        1009, 1020, 1300, 1963, 1964, 1966, 1973, 1975, 1977, 1981,
                                  1982, 1983, 1984, 1988, 1989, 1990, 1991, 1992
             Source: TIGTA analysis of e-filed tax returns through July 24, 2010.

On February 10, 2010, we alerted IRS management that individuals were erroneously claiming
vehicles with a nonqualifying vehicle year. We recommended that reject codes for e-filed tax returns
and Error Resolution System procedures for paper-filed tax returns be developed to not allow
Form 8834 and Form 8936 credits when individuals are claiming credits for vehicles with
nonqualifying years. Subsequently, we alerted IRS management on September 7, 2010, that
individuals were also erroneously claiming vehicles with nonqualifying vehicle years for the
alternative motor vehicle credit. We recommended that reject codes for e-filed tax returns and Error
Resolution System procedures for paper-filed tax returns be developed to not allow Form 8910
alternative motor vehicle credits when individuals are claiming credits for vehicles with
nonqualifying vehicle years.
Management Actions
    •   March 1, 2010 – Management agreed with the recommendation in our February 2010 alert to
        develop e-file reject codes. On March 29, 2010, management developed two new reject
        codes to reject e-filed tax returns in which the vehicle claimed had a nonqualifying vehicle
        year. We estimate the implementation of the reject codes resulted in $1.9 million in revenue
        protected from rejecting e-filed tax returns between March 30, 2010, and July 24, 2010, in
        which individuals were claiming vehicles that had a nonqualifying year. This estimate is
        based on 411 rejected e-filed tax returns that had an average claim amount of $4,669.4
    •   September 28, 2010 - Management agreed with recommendations in our September 2010
        alert. Management responded that instructions will be issued to the Code and Edit function
        and the Error Resolution System no later than January 1, 2011, to review Form 8910 and not
        allow claims for credits for vehicles with years earlier than 2009. In addition, a reject code
        will be implemented in January 2011 to reject e-filed tax returns in which individuals claim
        the alternative motor vehicle credit for vehicles with a nonqualifying vehicle year.


4
 Average claim amount was calculated by dividing the total amount of credits claimed with Forms 8834 and 8936 by the
number of unique individuals claiming credits with Forms 8834 and 8936.
                                                                                                            Page 7
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



We will include tests in our 2011 Filing Season Review to evaluate the IRS’s implementation of
planned corrective actions.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop Error Resolution System procedures for paper-filed tax returns to
not allow plug-in electric vehicle credits when individuals claim the credits for vehicles with
nonqualifying years.
       Management’s Response: IRS management agreed with this recommendation.
       Instructions will be issued to the Code and Edit function tax examiners for the 2011 Filing
       Season to disallow claims for credits on vehicles with model years earlier than 2009.
Recommendation 2: Initiate actions to recover the $4.5 million in plug-in electric and alternative
motor vehicle credits claimed by the 2,710 individuals the TIGTA identified as having erroneously
claimed these credits.
       Management’s Response: IRS management agreed with this recommendation. The IRS
       will use math error authority to reverse the credit or adjust the taxpayer’s account for the
       2,710 individuals identified as having erroneously claimed plug-in electric and alternative
       motor vehicle credits using a nonqualifying vehicle year.

Individuals erroneously claimed plug-in electric and alternative motor vehicle credits
for vehicles with nonqualifying placed in-service dates
Our review identified 589 individuals who e-filed their tax returns and erroneously claimed more
than $1.4 million in plug-in electric and alternative motor vehicle credits for vehicles with
nonqualifying placed in-service dates. These erroneous claims included:
   •   131 individuals claiming $263,715 in plug-in electric vehicle credits on Forms 8834 and
       8910 with in-service dates before February 17, 2009, or after December 31, 2009. The law
       requires that vehicles claimed on Forms 8834 and 8910 have in-service dates after
       February 17, 2009, and before January 1, 2010.
   •   129 individuals claiming $596,445 in plug-in electric vehicle credits on Form 8936 with
       in-service dates before January 1, 2009, or after December 31, 2009. The law requires that
       vehicles claimed on Form 8936 have in-service dates after December 31, 2008, and before
       January 1, 2010.
   •   329 individuals claiming $596,783 in alternative motor vehicle credits on Form 8910 with
       in-service dates before January 1, 2009, or after December 31, 2009. The law requires these
       vehicles have in-service dates after December 31, 2008, and before January 1, 2010.


                                                                                              Page 8
                       Individuals Received Millions of Dollars in
                    Erroneous Plug-in Electric and Alternative Motor
                                    Vehicle Credits



Figure 6 provides examples of vehicle in-service dates reported by individuals on e-filed tax returns
we identified as having erroneous claims for plug-in electric and alternative motor vehicle credits.
                    Figure 6: Examples of Nonqualifying Placed In-Service
                                Dates Claimed on Tax Returns


                            Form            Examples of Nonqualifying In-Service Dates
                         Form 8834          03/02/1999, 06/06/2008, 11/14/2008, 12/23/2008,
                                            01/01/2009, 01/05/2009, 01/01/2010, 01/04/2010
                         Form 8936          01/22/1920, 01/21/1929, 12/20/2007, 01/01/2010,
                                            01/29/2010, 02/28/2010, 03/01/2010, 03/15/2010
                         Form 8910          03/23/1997, 01/22/2006, 07/01/2006, 11/5/2006,
                                            01/01/2007, 11/01/2007, 01/01/2008, 06/01/2008
                    Source: TIGTA analysis of e-filed tax returns through July 24, 2010.

On February 10, 2010, we alerted IRS management that individuals were erroneously claiming
vehicles with nonqualifying in-service dates. We recommended that reject codes for e-filed tax
returns and Error Resolution System procedures for paper-filed tax returns be developed to not allow
credits when individuals are claiming credits for vehicles with nonqualifying in-service dates.
Management Actions
    •   March 1, 2010 – Management agreed with our recommendations. On March 29, 2010,
        management developed three reject codes to reject e-filed tax returns with nonqualifying
        in-service dates. In addition, instructions were issued to tax examiners to enter a Computer
        Condition Code5 to deny the credit on paper tax returns claiming credits for vehicles with
        nonqualifying in-service dates. We estimate the implementation of these reject codes
        resulted in more than $1.2 million in revenue protected from rejecting e-filed tax returns
        between March 30, 2010, and July 24, 2010, in which individuals were claiming vehicles
        with nonqualifying in-service dates. This estimate is based on 519 rejected e-filed tax returns
        that had an average claim amount of $2,359.6
We will include tests in our 2011 Filing Season Review to evaluate IRS’s implementation of planned
corrective actions.




5
  Computer Condition Codes are assigned by tax examiners or are computer generated and are used to identify a special
condition or computation for the computer.
6
  Average claim amount was calculated by dividing the total amount of credits claimed with Forms 8834, 8910, and 8936
by the number of unique individuals claiming credits with Forms 8834, 8910, and 8936.
                                                                                                             Page 9
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Initiate actions to recover the more than $1.4 million in plug-in electric and
alternative motor vehicle credits claimed by 589 individuals that the TIGTA identified as having
erroneously claimed credits for vehicles with nonqualifying in-service dates.
       Management’s Response: IRS management agreed with this recommendation. The IRS
       will use math error authority to reverse the credit or adjust the taxpayer’s account for the
       589 individuals identified as having erroneously claimed plug-in electric and alternative
       motor vehicle credits for vehicles with an in-service date before January 1, 2009, or after
       December 31, 2009.

Individuals erroneously claimed plug-in electric and alternative motor vehicle credits
for nonqualifying vehicle makes and models
Our review identified 9,621 individuals who e-filed their tax returns and erroneously claimed more
than $27.1 million in plug-in electric and alternative motor vehicle credits for vehicles with a
nonqualifying make and model. Our analysis of the descriptions provided by these individuals on
their e-filed tax returns identified vehicles with a make and model that were not on the IRS-approved
list of vehicles. The IRS provides a list on IRS.gov (the IRS public web site) of vehicle
manufacturers, makes, and models that qualify for the plug-in electric vehicle credits claimed on
Form 8834 and Form 8936 and the alternative motor vehicle credit claimed on Form 8910.
Figure 7 provides examples of vehicles with a nonqualifying make and model reported by
individuals on e-filed tax returns we identified as having erroneous claims for plug-in electric and
alternative motor vehicle credits.
            Figure 7: Examples of Nonqualifying Vehicle Makes and Models
                              Claimed on Tax Returns


                         Form                         Makes/Models of Vehicles
                       Form 8834         Bicycle, Buick Enclave, Chevrolet Camero, Chevy Truck,
                                         Dodge Caravan, Harley Classic, Hyundai Sonata
                       Form 8936         Acura 2006, Cadillac Escalade, Dodge Durango, Golf
                                         Cart, Ford Focus, Lexus RXH, Hummer H3, Mini Cooper
                       Form 8910        Acura, Hyundai, Jeep, Kia, Lancer, Lexus, Lincoln,
                                        Mitsubishi, Moto Guzzi, Pontiac, Smart, SUV, Taxi
                  Source: TIGTA analysis of e-filed tax returns through July 24, 2010.

On March 1, 2010, we alerted IRS management that individuals were erroneously claiming plug-in
electric vehicle credits for vehicles with a nonqualifying make and model. We recommended that
reject codes for e-filed tax returns and Error Resolution System procedures for paper-filed tax returns
                                                                                                  Page 10
                     Individuals Received Millions of Dollars in
                  Erroneous Plug-in Electric and Alternative Motor
                                  Vehicle Credits



be developed to not allow Form 8834 and Form 8936 credits when individuals are erroneously
claiming credits for vehicles with a nonqualifying make and model.
On September 7, 2010, we alerted IRS management that individuals were also erroneously claiming
the alternative motor vehicle credit for vehicles with a nonqualifying make and model. We
recommended that the IRS develop reject codes for e-filed tax returns and Error Resolution System
procedures for paper-filed tax returns to not allow Form 8910 credits when individuals are claiming
credits for vehicles with a nonqualifying make and model.
Management Actions
    •   March 9, 2010 – IRS management disagreed with our recommendations. The IRS stated that
        implementation of our recommendations would require IRS employees to review the forms
        for several hundred different types of qualifying vehicles. Such a review process would have
        a significant impact on the number of tax returns that could be reviewed per hour. The IRS
        also believed that this issue would be best handled after the tax return has been processed. A
        Compliance Strategy being developed for Recovery Act provisions will include tests in
        Fiscal Year 2011 for this issue.
    •   September 28, 2010 – Management disagreed with our recommendations, citing the same
        reasons given previously in their March 9, 2010, response. Management indicated that
        identifying eligible vehicles would require tax examiners to review information not available
        on the tax return. A review of just the Qualified Alternative Fuel Motor Vehicles list alone
        currently shows 18 manufacturers and 771 rows of vehicles. In developing the Compliance
        Strategy for Recovery Act provisions, the IRS plans to conduct a test for 1,000 post-refund
        cases in Fiscal Year 2011 that involve claims for plug-in electric and alternative motor
        vehicle credits.

Variations in vehicle descriptions prevent validation of plug-in electric and
alternative motor vehicle credit claims
In the IRS’s response to our alerts, it noted that examiners are unable to determine from information
provided by individuals on tax returns if a vehicle meets required make and model qualifications. For
example, the taxpayer may indicate “Ford Fusion” under make and model, but the description is too
vague to determine if the taxpayer purchased a qualifying hybrid model or a nonqualifying entirely
gas model of the Ford Fusion.
We agree that there is no consistency in the descriptions individuals include on their tax returns for
vehicles being claimed for plug-in electric and alternative motor vehicle credits. Although the IRS
provides a list on IRS.gov of specific vehicle makes and models that qualify for each plug-in electric
and alternative motor vehicle credit, it has not developed a process to standardize the information on
tax returns.



                                                                                               Page 11
                      Individuals Received Millions of Dollars in
                   Erroneous Plug-in Electric and Alternative Motor
                                   Vehicle Credits



Our review of e-filed tax returns identified 34,602 individuals who claimed more than $50 million in
plug-in electric and alternative motor vehicle credits for 34,991 vehicles in which we were unable to
determine from the description provided on the tax return if the make and model of the vehicles
qualified for the credit claimed. Figure 8 provides examples of the nonstandardized entries input by
individuals on e-filed tax returns we analyzed.
         Figure 8: Examples of Variations in Vehicle Make Entries by Individuals
   CHEVROLET               FORD                 MERCEDES                NISSAN 
CHEVROLET          FORD                   MERCEDES                NIS                  TOMB
+CHEVY             FODR                   MERCEDE                 NISAN                TOMBBERLI
CHAVY              FOED                   MERCEDEES               NISS                 TOMBERLAND
CHECROLET          FOERD                  MERCEDES B              NISSA                TOMBORILIN
CHEROLET           FOR                    MERCEDES BEN            NISSAL               TOMBRL
CHEV               FORT                   MERCEDES BENZ           NISSAN               TUMBERLIN
CHEVE                     HONDA           MERCEDES BNZ            NISSAN ALT                   TOYOTA 
CHEVERLOT          HANDA                  MECEDES                 NISSAN ALTIM         TOYOTA
CHEVEY             HOMDA                  MERC BENZ               NISSAN ALTIMA        JAPEN TOYOTA
CHEVLORET          HON                    MERCEDED-BEN            NISSASN              TAYOTA
CHEVOLET           HOND                   MERCEDEZ                NISSEN               TOTOTA
CHEVOLETE          HONDA                  MERCEDEZ-BENZ           NISSIAN              TOTOYA
CHEVORELET         HONDAI                 MERCERDES               NISSON               TOY
CHEVORLET          HONDO                        MERCURY           NISSSAN              TOYATA

CHEVR              JAPAN                  MERCURI                 NIZZAN               TOYATO

CHEVRLET           JAPANESE HONDA         MERCURU                     TOMBERLIN        TOYOA

CHEVROLETT               HYUNDAI          MERCURY 2/WD            TOMBERLIN            TOYODA
CHEVROLTE          HUNDAI                 MERCURY 4X4             TIMBERLINE           TOYOR
CHEVY              HONDAI                 MERCUTY                 TMBLN                TOYOYA
CHEY                      MAZDA           MERURY                  TMBO                 TOYPTA

CHV                MAZDA                  MERC                    TMBRLN               TOYTA
CHVROLET           MADZA                                          TOBERL               TTOYOTA
                   MAZADA                                         TOBERLINE            TYOTA

Source: TIGTA analysis of vehicle make and model names entered by individuals on Forms 8910.

The IRS should develop coding that could be used to identify the specific vehicle make and model
an individual is claiming for plug-in electric and alternative motor vehicle credits. For example, the
IRS uses a coding classification process for its North American Industry Classification System’s
Principal Business or Professional Activity Codes used in the instructions for Form 1040, Profit or
Loss from Business (Schedule C), to standardize types of businesses. Figure 9 provides an example
of the North American Industry Classification System’s Principal Business or Professional Activity
Codes used in Schedule C Instructions.

                                                                                                         Page 12
                       Individuals Received Millions of Dollars in
                    Erroneous Plug-in Electric and Alternative Motor
                                    Vehicle Credits



       Figure 9: Example of the North American Industry Classification System’s
                   Principal Business or Professional Activity Codes
                            Used in Schedule C Instructions




Source: 2009 Schedule C Instructions.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Develop a process to ensure individuals are not erroneously claiming
vehicles with nonqualifying makes and models. This could include developing a standardized
system of codes similar to those used in the instructions for Schedule C to identify vehicle makes
and models that qualify for plug-in electric and alternative motor vehicle credits and/or require the
Vehicle Identification Number7 on the Forms 8834, 8936, and 8910.




7
 A Vehicle Identification Number is a unique serial number used by the automotive industry to identify individual motor
vehicles.
                                                                                                             Page 13
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



       Management’s Response: IRS management agreed with this recommendation. For
       Filing Season 2011, Code and Edit function tax examiners will perform a review of the make
       and model of the vehicle claimed on the Forms 8834, 8936, and 8910 and disallow any
       clearly nonqualifying vehicle. Starting in the 2012 Filing Season, a new Line 2, Vehicle
       Identification Number, will be added to Forms 8834, 8936, and 8910.
Recommendation 5: Initiate actions to recover the $27.1 million in plug-in electric and
alternative motor vehicle credits claimed by 9,621 individuals the TIGTA identified as having
erroneously claimed the credit for vehicles with a nonqualifying make and model.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division Compliance function will work with the Small
       Business/Self-Employed Division to include 1,000 cases in the Exam work plan. The results
       of these audits will be used to determine whether additional audits are warranted.

Plug-in Electric and Alternative Motor Vehicle Credits Are Being Abused
Our review of e-filed tax returns identified individuals erroneously claiming the same vehicle for
multiple plug-in electric and alternative motor vehicle credits, claiming an excessive number of
vehicles for personal use credits, and credits claimed by prisoners. Processes were not established to
identify individuals abusing the plug-in electric and alternative motor vehicle credits. We identified
172 individuals who appear to have erroneously claimed more than $2.1 million in plug-in electric
and alternative motor vehicle credits.

Individuals claimed multiple credits for the same plug-in electric motor vehicle
Our review identified 129 individuals who e-filed their tax returns as of July 24, 2010, and
erroneously claimed $779,000 in multiple plug-in electric and alternative motor vehicle credits for
the same vehicle. For Tax Year 2009, an approved plug-in electric drive motor vehicle may be
claimed for credit on either Form 8834 or Form 8936, but not on both. If a vehicle qualifies for a
plug-in electric motor vehicle credit, it cannot also be claimed for the alternative motor vehicle
credit.
On September 7, 2010, we alerted IRS management that individuals were erroneously claiming
multiple credits for the same vehicle. We recommended the IRS develop reject codes for e-filed tax
returns and Error Resolution System procedures for paper-filed tax returns to not allow multiple
credits for the same vehicle.
Management Actions
   •   September 28, 2010 – Management disagreed with this recommendation stating that the
       Submission Processing function cannot determine which credit is valid without more
       information than is available on the tax return.


                                                                                              Page 14
                        Individuals Received Millions of Dollars in
                     Erroneous Plug-in Electric and Alternative Motor
                                     Vehicle Credits



   We agree with management that examiners cannot determine which credit is valid without more
   information. That is the reason we made our recommendation to reject tax returns in which multiple
   credits are claimed and implement an unallowable code to review these claims by the Examination
   function.

   Individuals claimed excessive numbers of vehicles for the Form 8936
   Our analysis of e-filed tax returns identified 14 individuals claiming more than $1.3 million for 5 or
   more vehicles as personal use credits. Claiming five or more vehicles for personal use is
   questionable and it appears the individuals may be purchasing the vehicles for business use.
   Vehicles used in a business or by the business’ employees are considered business or investment
   property and if the vehicle is subsequently sold the credit is subject to recapture. A vehicle claimed
   for personal credit has a tax advantage because the amount can be used to reduce the AMT. If the
   credits are for business use, the business portion of the credit cannot be used to reduce the AMT.
   Figure 10 provides a summary of the 223 vehicles claimed by the 14 individuals.
                       Figure 10: Individuals Claiming Five or More Vehicles

                    Vehicles        Business Use         Personal Use
                    Claimed        Credit Claimed       Credit Claimed        Credit Allowed
                                                 ********1**********




                 223                   0                  1,326,731            $1,326,731

               Source: TIGTA analysis of e-filed tax returns through July 24, 2010.

On September 7, 2010, we alerted IRS management of our concern that individuals were claiming
credits for five or more vehicles and that processes should be developed to identify these
questionable claims and ensure the accuracy of the credits claimed.



                                                                                                  Page 15
                     Individuals Received Millions of Dollars in
                  Erroneous Plug-in Electric and Alternative Motor
                                  Vehicle Credits



Management Actions
   •   September 28, 2010 – Management agreed with our recommendation and indicated that they
       will implement an unallowable code for review of these claims by the Examination function.
We will include tests in our 2011 Filing Season Review to evaluate the IRS’s implementation of
planned corrective actions.

Prisoners erroneously claimed plug-in electric and alternative motor vehicle credits
We identified 29 prisoners who e-filed their tax returns and erroneously received $49,926 in plug-in
electric and alternative motor vehicle credits. A plug-in electric and alternative motor vehicle must
have been purchased or converted and placed in service during Tax Year 2009 and these individuals
were incarcerated for all of Calendar Year 2009. In addition, another 59 prisoners attempted to
erroneously claim $104,795 in plug-in electric and alternative motor vehicle credits. The IRS
currently has a hold on these accounts to prevent refunds from being issued. However, these
individual accounts have not been adjusted and most have not been referred to the Examination
function.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 6: Develop reject codes to reject e-filed returns and implement an unallowable
code for paper-filed tax returns to ensure individuals are not erroneously claiming plug-in electric
and alternative motor vehicle credits for the same vehicle.
       Management’s Response: IRS management agreed with this recommendation. The IRS
       issued two Unified Work Requests on November 18, 2010, for programming Unallowable
       Code 79 for e-filed and paper tax returns when taxpayers are claiming the same vehicle for
       more than one credit. Because the requested action will be subject to funding and resource
       prioritization by the Modernization and Information Technology Services organization,
       submission of the Unified Work Requests will complete the corrective action.
Recommendation 7: Initiate actions to recover the $779,000 in plug-in electric and alternative
motor vehicle credits claimed by 129 individuals the TIGTA identified as having erroneously
claimed multiple credits for the same vehicle.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division Compliance function will work with the Small
       Business/Self-Employed Division to review these returns and open audits where warranted.
Recommendation 8: Develop processes to ensure prisoners do not receive erroneous plug-in
electric and alternative motor vehicle credits. In addition, initiate actions to recover the $49,926 in


                                                                                                 Page 16
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



plug-in electric and alternative motor vehicle credits erroneously claimed by 29 prisoners and ensure
59 prisoners with holds are referred to the Examination function.
       Management’s Response: IRS management agreed with this recommendation. The IRS
       will continue to check tax returns against the prisoner database and refer them for
       examination. The IRS will also use existing math error authority to reverse the credits or
       adjust the taxpayers’ accounts for the prisoner claims mentioned in this report. Where math
       error authority is not possible, the IRS will review and open audits when warranted.




                                                                                             Page 17
                        Individuals Received Millions of Dollars in
                     Erroneous Plug-in Electric and Alternative Motor
                                     Vehicle Credits



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the effectiveness of IRS processes to identify and prevent
erroneous claims for the plug-in electric vehicle credit and alternative motor vehicle credit for
tax returns filed from January 1 through July 24, 2010. To accomplish our objective, we:
I.       Determined if the IRS had adequate controls to identify erroneous plug-in electric and
         alternative motor vehicle credit claims at the time a tax return was processed.
II.      Determined if the new tax law provisions were correctly implemented into tax return
         processing systems for e-filed tax returns with claims for the credit for certain plug-in
         electric vehicles, the alternative motor vehicle credit, and the qualified plug-in electric
         drive motor vehicle credit. We used computer analysis of 100 percent of the
         e-filed Tax Year 2009 individual income tax returns processed nationally on the Tax
         Return Data Base between January 1 and July 24, 2010,1 to identify tax returns with plug-
         in electric and alternative motor vehicle credits and determined if they were processed
         correctly.
         A. We electronically identified 69,496 individuals that claimed a plug-in Electric
            Vehicle Credit on Qualified Plug-in Electric and Electric Vehicle Credit (Form 8834),
            Conversion Kits Credit on Alternative Motor Vehicle Credit (Form 8910), and
            Qualified Plug-in Electric Drive Motor Vehicle Credit (Form 8936) or an Alternative
            Motor Vehicle Credit (Form 8910) on an e-filed tax return through July 24, 2010.
             1. 2,769 individuals with claims on Form 8834.
             2. 53,5232 individuals with claims on Form 8910. Of these returns, 1,522 claims
                were made for plug-in electric conversion vehicles and 52,006 claims were made
                for nonconversion alternative motor vehicles.
             3. 13,204 individuals with claims on Form 8936.




1
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Systems
validated the data that were extracted, and we verified the data with appropriate documentation. Judgmental
samples were selected and reviewed to ensure that the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify that the amounts
were supported.
2
  Five individuals claimed both a plug-in conversion and an alternative motor vehicle on Form 8910
                                                                                                            Page 18
                        Individuals Received Millions of Dollars in
                     Erroneous Plug-in Electric and Alternative Motor
                                     Vehicle Credits



         B. Determined whether the identified e-filed tax returns with claims for the credit for
            certain plug-in electric vehicles, the alternative motor vehicle credit, and the qualified
            plug-in electric drive motor vehicle credit had been processed correctly by:
             1. Using computer analysis to determine if the qualifying year, the placed in-service
                date, and the make of vehicle met the established criteria for the individual to be
                eligible to claim the credit.
             2. Using computer analysis to determine if an individual had used a vehicle for a
                double benefit or had questionable personal use credits by claiming five or more
                vehicles.
             3. Using computer analysis to determine if prisoners incarcerated for the entire
                Calendar Year 2009 and IRS employees erroneously claimed the credit.
III.     Determined if the new tax law provisions were correctly implemented into tax return
         processing systems for paper-filed tax returns with claims for the credit for certain plug-
         in electric vehicles, the alternative motor vehicle credit, and the qualified plug-in electric
         drive motor vehicle credit by:
         A. Using computer analysis of 100 percent of the Tax Year 2009 individual income tax
            returns processed nationally on the Individual Return Transaction File between
            January 1 and May 28, 2010,3 to identify a population of 7,769 tax returns to select a
            sample.
         B. Using an error rate of 13 percent, a confidence level of 95 percent, and a precision
            factor of ±4 percent, we selected a statistically valid sample of 263 paper tax returns.
            Of the 263 tax returns selected, 233 tax returns were available, which became our
            actual sample reviewed. This increased the precision factor to ±4.73 percent.
IV.      Evaluated the accuracy of the implementation of the Treatment of alternative motor
         vehicle credit as a personal credit allowed against the AMT by matching all of the
         identified erroneous claims against the Individual Return Transaction File for AMT
         liability.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems

3
 To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Systems
validated the data that were extracted, and we verified the data with appropriate documentation. Judgmental
samples were selected and reviewed to ensure that the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify that the amounts
were supported.
                                                                                                            Page 19
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for new tax legislation such as the plug-in electric
vehicle credits. We also evaluated the controls that are incorporated directly into computer
applications to help ensure the validity, completeness, accuracy, and confidentiality of
transactions and data during application processing of tax returns with these credits.




                                                                                           Page 20
                   Individuals Received Millions of Dollars in
                Erroneous Plug-in Electric and Alternative Motor
                                Vehicle Credits



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Kathleen Hughes, Senior Auditor
Steve Vandigriff, Senior Auditor
Lawrence White, Senior Auditor
Kim McMenamin, Audit Evaluator
Martha Stewart, Information Technology Specialist




                                                                                    Page 21
                   Individuals Received Millions of Dollars in
                Erroneous Plug-in Electric and Alternative Motor
                                Vehicle Credits



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Deputy Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 22
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of Calendar
Year 2010 individual income tax returns. The returns were received by the IRS Submission
Processing sites between January 1 and July 24, 2010.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $33 million from 12,920 individuals erroneously claiming
    plug-in electric and alternative motor vehicle credits on e-filed tax returns (see page 5).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify individuals who e-filed a tax return claiming plug-in and
alternative motor vehicle credits on Qualified Plug-in Electric and Electric Vehicle Credit
(Form 8834), Alternative Motor Vehicle Credit (Form 8910), and Qualified Plug-in Electric
Drive Motor Vehicle Credit (Form 8936). We identified 12,920 individuals erroneously
claiming $33 million in these credits with nonqualifying vehicle years, nonqualifying vehicle
in-service dates, and nonqualifying vehicle makes and models.

Type and Value of Outcome Measure:
• Revenue Protection – Potential; $5.3 million from 1,719 individuals erroneously reducing the
  amount of the AMT owed (see page 5).

Methodology Used to Measure the Reported Benefit:
From the 12,920 individuals who erroneously claimed plug-in or alternative motor vehicle
credits, we identified 1,719 individuals who erroneously reduced the amount of AMT owed by
almost $5.3 million.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $3.1 million from 930 individuals who submitted an e-filed
    tax return with erroneous plug-in vehicle credits. These credits were rejected after the IRS


                                                                                          Page 23
                       Individuals Received Millions of Dollars in
                    Erroneous Plug-in Electric and Alternative Motor
                                    Vehicle Credits



    implemented new reject codes based on our recommendations during this review (see
    page 5).

Methodology Used to Measure the Reported Benefit:
Management agreed with our recommendations in an email alert, and on March 29, 2010,
implemented 5 new reject codes to reject e-filed tax returns with a vehicle year and/or
in-service date that do not meet the tax provision requirements for the plug-in vehicle credits. In
addition, instructions were issued to tax examiners to enter a Computer Condition Code1 on
paper-filed tax returns with disqualifying in-service dates and the credit will be denied.
We estimate the implementation of these 5 reject codes resulted in revenue protection of an
estimated $3.1 million from March 30, 2010, to July 24, 2010. This estimate is based on
930 e-filed tax returns that were rejected with these conditions using an average claim amount of
$2,359 for 519 returns and an average claim amount of $4,669 for 411 returns.

Type and Value of Outcome Measure:
• Revenue Protection – Potential; $779,000 from 129 individuals erroneously claiming more
  than one plug-in vehicle credit for the same vehicle (see page 14).

Methodology Used to Measure the Reported Benefit:
We matched Form 8834, Form 8910, and Form 8936 and identified 129 individuals who
included 142 vehicles that claimed a double benefit for the same vehicle.

Type and Value of Outcome Measure:
• Revenue Protection – Potential; $1.3 million from 14 individuals erroneously claiming 5 or
  more vehicles as a personal use credit (see page 14).

Methodology Used to Measure the Reported Benefit:
From all e-filed tax return claims for plug-in electric and alternative motor vehicle credits, we
identified 14 individuals claiming more than $1.3 million in personal use credits for 5 or more
vehicles.

Type and Value of Outcome Measure:
• Revenue Protection – Potential; $49,926 from 29 individuals who were prisoners
  (see page 14).


1
 Computer Condition Codes are assigned by tax examiners or are computer generated and are used to identify a
special condition or computation for the computer.
                                                                                                       Page 24
                    Individuals Received Millions of Dollars in
                 Erroneous Plug-in Electric and Alternative Motor
                                 Vehicle Credits



Methodology Used to Measure the Reported Benefit:
We identified 29 prisoners who e-filed their tax returns and erroneously received $49,926 in
erroneous plug-in electric and alternative motor vehicle credits. These individuals were
incarcerated for all of Calendar Year 2009.




                                                                                         Page 25
       Individuals Received Millions of Dollars in
    Erroneous Plug-in Electric and Alternative Motor
                    Vehicle Credits



                                                       Appendix V

Management’s Response to the Draft Report




                                                            Page 26
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 27
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 28
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 29
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 30
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 31
   Individuals Received Millions of Dollars in
Erroneous Plug-in Electric and Alternative Motor
                Vehicle Credits




                                                   Page 32
